                             CLOSEOUT FOR M-95010005

                                                             fficer in the ~ivisio-
                                                            rought an allegation of misconduct in


                                                                             inning of her tenure-
track position at the university in two separate targeted NSF program applications. These targeted
NSF Dromarns assist new facultv in their inde~endentresearch careers. The subiect's m~lications




subject misrepresented her tenure-track app6ntm~entin at least one of the NSF proposals.

        Application to program #1 required that an applicant have a tenure-track appointment at his
or her institution beginning no later than the effective date of any award. Application to program
#2 required that an applicant hold a tenure-track appointment beginning no later than the
application's deadline and no earlier than about three years before the application's deadline. The
beginning tenure-track appointment dates represented by the subject in proposals #1 and #2
indicated that she was qualified for each application. However, the date the subject cited in
proposal #2 was three years later than the one she cited in proposal #l. The tenure-track
appointment date she used in proposal #1 would have disqualified her for program #2 and vice
versa.

        In response to 0 1 0 s inqui~y,the subject said that she had not intended to violate any
requirements, but, after OIG contacted her, she realized that she had done something wrong. She
explained that, since she was a foreign national, when the university first hired her it could not
legally give her a tenure-track position until she received her permanent residency status.
Therefore, the university appointed her to a threeyear, renewable, non-tenure accruing position
with the understanding that, when she received her permanent residency status, her appointment
would be changed to a tenure-track position. Shie said that, when she submitted proposal #1, she
was still in the non-tenure accruing position, but she assumed the university was fully committed to
her and that she was qualified to apply. The subjtxt explained that she never gave her appointment
status much thought when she submitted proposal #1, which was subsequently funded by NSF.

        She told OIG that two years after she submitted proposal #1 she received an
announcement for another targeted NSF program that specified eligibility requirements
related to the applicant's tenure-track appointment beginning date. She asked NSF program


                                       Page 1 of 2                                       M95-05
                              CLOSEOUT FOR M-95010005

staff to evaluate her eligibility for this program. NSF program st& determined that the           f
                                                                                                  :
subject's original non-accruing appointment was, in essence, the beginning of an "equivalent"
tenure-track appointment, and, therefore, she was not qualified. The subject said that she told
an NSF staff member that the decision seemed unfair because it limited a foreign national's
eligibility period to apply for targeted NSF programs. She explained that eligibility for most
targeted NSF programs specified a restricted tenure-track appointment "window" that, for
non-citizens, was further limited because of the requirement for official permanent residency
status, which often took two or more years to receive. According to the subject, the NSF staff
member was sympathetic and explained that changes were being made in requirements                 1
associated with targeted NSF programs to assist scientists in situations such as hers.            I
                                                                                                  t

         Subsequently, the subject received the announcement for program #2. She explained
                                                                                                  i1
that the eligibility requirement that specified the beginning tenure-track appointment date in    !I
the program #2 announcement was different from that in the targeted NSF program                   1
announcement she had discussed with NSF staff. She assumed that the differences she               I


observed in the program #2 announcement reflected the changes that were alluded to by the
                                                                                                  1
NSF staff member. She explained that in the program #2 announcement "equivalent" tenure
track position was defined to include only applicants whose institutions did not offer tenure-    it I
track appointments. Because her university offered tenure-track appointments, she interpreted         I

this statement to mean that NSF's previous determination about her "equivalent" tenure-track
position was not relevant to her program #2 application. Consequently, she applied to
                                                                                                  I
                                                                                                  I
                                                                                                      I
                                                                                                      I
                                                                                                      4
program #2 using her actual tenure-track appointment date, which bkgan three years after her          I
initial appointment to a non-tenure accruing position. After OIG contacted her, the subject           I


provided a letter from the university's president, apologizing for the university's error in      I.@
permitting the subject to submit proposal #2 and confirming the subject's statements about her
university appointment.

       OIG determined that the information provided by the subject was correct and her
explanation reasonable. OIG concluded that, although the information presented by the
subject about her tenure-track appointment in her two proposal submissions was
contradictory, her representations were the result of understandable misinterpretations, and,
therefore, were not misconduct in science.

       This inquiry is closed and no further action will be taken on this case.
                          \

cc: StaE Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                      Page 2 of 2
